No. 20-6829

IN THE SUPREME COURT OF THE UNITED STATES

JOSEPH J. BUTTERCASE, PETITIONER
V.
STATE OF NEBRASKA, RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI TO
THE NEBRASKA SUPREME COURT
DECLARATION OF INMATE FILING

I, Joseph J. Buttercase, am an inmate confined in an institution (Nebraska
State Penitentiary). Today, March 9, 2021, I am depositing the CORRECTED
PETITION FOR REHEARING and APPLICATION FOR SUSPENSION OF ORDER DENYING PETITION
FOR WRIT OF CERTIORARI in this case in the institution's internal mail system.
First-class postage is being prepaid by me or by the institution on my behalf.
I declare under penalty of perjury that the foregoing is true and correct
(see 28 U.S.C. ยง 1746; 18 U.S.C. ยง 1621).
Executed on March 30, 2021.

Joseph . Buttercase #76999
Nebraska State Penitentiary
P.O. Box 22500
Lincoln, Nebraska 68542-2500
(402) 471-3161
PRO SE PETITIONER

